i

'A

Case: 19-20830

Vi*

Document: 00515476899

Page: 1

iiate Filed: 07/0272020

/
f/

IN THE UNITED STATES COUtlT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20830
Conference Calendar

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
MOLIKA AKWO NWEME, also known as Johnson Tabe Epie,
Defendant-Appellant

Appeal from the United States District Court
for the Southern District of Texas
USDCNo. 4:18-CR-497-l

Before DAVIS, SMITH, and SOUTHWICK, Circuit Judges.
PER CURIAM:*
The attorney appointed to represent Molika Akwo Nweme has moved for
leave to withdraw and has filed a brief in accordance with Anders v. California,
386 U.S. 738 (1967), and United States v. Flores, 632 F.3d 229 (5th Cir. 2011).
Nweme has filed a response and a supplemental response. The record is not
sufficiently developed to allow us to make a fair evaluation of Nweme’s claims
of ineffective assistance of counsel; we therefore decline to consider the claims

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.

5

